HHS/OIG-Audit--"Review of Internal Controls Over Independent Living Program Funds Awarded to States, (A-03-91-00552)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Internal Controls Over Independent Living Program Funds Awarded States," (A-03-91-00552)
March 16, 1993
Complete
Text of Report is available in PDF format (1.92 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that the Administration for Children and Families' (ACF) internal controls were inadequate to safeguard
Independent Living Program (ILP) funds from unauthorized expenditure and to prevent States from violating the spending
cutoff dates established by legislation. Although there were several weaknesses noted, the most significant was the lack
of a single control to prevent funding draws or expenditures after the spending cutoff dates. The controls appeared more
oriented to the award amount, and permitted all transactions up to that amount, regardless of when the transactions occurred.
We have concluded that ACF's inability to prevent State violations of the spending cutoff dates constitutes a significant
program weakness in internal controls. The weaknesses in internal controls were a contributing factor to the States' failure
to comply with the spending cutoff dates and Federal reporting requirements. As a result, $16.7 million of the $135 million
of ILP funds awarded to States in Fiscal Years 1987 through 1989 was either spent or at risk of being spent after the spending
cutoff dates.